                                                          IG-99-036




AUDIT
                               X-38/CREW RETURN VEHICLE
REPORT                            OPERATIONAL TESTING

                                     September 20, 1999




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies
To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

       Assistant Inspector General for Auditing
       NASA Headquarters
       Code W, Room 8V69
       300 E Street, SW
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at
(800) 424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.
______________________________________________________________________________________________________

Acronyms

CRV        Crew Return Vehicle
ISS        International Space Station
NPG        NASA Procedures and Guidelines
∗
    W                                                                                      September 20, 1999


TO:              M/Associate Administrator for Space Flight
                 AA/Director, Lyndon B. Johnson Space Center

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Audit of X-38/Crew Return Vehicle – Operational Testing
                 Assignment Number A9900200 Redacted Report*
                 Report Number IG-99-036


The subject final report is provided for your information and use. Please refer to the Results in
Brief for the overall results. Our evaluation of your response is incorporated into the body of the
report. Your comments on a draft of this report were responsive to the recommendations. The
recommendations will remain open for reporting purposes until corrective action is completed.
Please notify us when action has been completed on the recommendations, including the extent
of testing performed to ensure the corrective action is effective.

If you have questions concerning the report, please contact Mr. Dennis E. Coldren, Program
Director, Human Exploration and Development of Space Audits, at (281) 483-4773, or
Mr. Len Diamond, Audit Program Manager, at (407) 867-4531. We appreciate the courtesies
extended to the audit staff. The final report distribution is in Appendix C.



[original signed by]

Russell A. Rau

Enclosure


cc:
B/Chief Financial Officer
B/Comptroller

∗
 We have redacted portions of this report due to references to deliberative process information. The redacted
passages do not affect the validity of this report or management's response.
G/General Counsel
JM/Director, Management Assessment Division
bcc:
AIGA, IG, Reading Chrons
JSC/BD5/Audit Liaison Representative
Douglas_A._Comstock@OMB.EOP
                                 NASA Office of Inspector General

IG-99-036                                                                                     September 20, 1999
    A9900200
                      X-38/Crew Return Vehicle – Operational Testing
Introduction
The NASA Office of Inspector General has performed an audit of X-38/CRV project
management effectiveness, including flight-testing (Assignment Number A9900200). Our
overall objective was to evaluate the effectiveness of X-38/CRV project management. We noted
a condition regarding operational testing of the CRV that warrants timely action by management.
Additional details on the objectives, scope, and methodology are in Appendix A.

As part of an international memorandum of understanding, the United States agreed to provide a
crew-return capability for the International Space Station (ISS) to be used in the event of crew
injury or illness, ISS failure, or Space Shuttle unavailability. To meet the commitment, NASA
authorized the X-38/Crew Return Vehicle (CRV) Project, for which the Johnson Space Center
(Johnson) is the lead center. The planned cost of the X-38/CRV Project is $90 million (Space
Flight Advanced Projects funds) for the X-38 segment and about $1.1 billion (ISS Program
funds) for the CRV segment.

Results in Brief
NASA has made no provision for an operational test of the CRV to determine its safety for
human space flight.1 Instead, the Agency plans to human rate the CRV2 based on a space flight
test of the X-38,3 certification by the CRV production contractor, and ground tests.4 Although
three independent review groups5 have expressed concerns about human rating the CRV without
operational testing, NASA has not planned or provided for CRV operational testing. NASA
prefers to make a decision on CRV operational testing following the X-38 space flight test.
While NASA plans to conduct an X-38 space flight test and other risk mitigation activities, the
criticality of the CRV to the safety of ISS crewmembers requires immediate contingency
planning for CRV operational testing.

1
 A CRV operational test would include a production vehicle being carried by a Space Shuttle Orbiter to the ISS,
docking and remaining on the ISS for about 3 months, and deploying unmanned from the ISS to Earth.
2
 The NASA term for this rating process is “human rating.”
3
 An X-38 space flight test would include a test vehicle being carried by a Space Shuttle Orbiter to Earth orbit,
remaining in orbit for about 2 days, and deploying unmanned from orbit to Earth.
4
 None of the plans include a test flight of a CRV.
5
 The independent groups were the NASA Advisory Council/Cost Assessment and Validation Task Force,
Independent Program Assessment Office, and Aerospace Safety Advisory Panel.
Background
The X-38/CRV uses a lifting body concept6 that includes a disposable deorbit module for
atmospheric entry to 23,000 feet and a parafoil for the final descent and landing for as many as
seven crewmembers. The X-38/CRV Project is in early development, with the acquisition phase
scheduled to begin in September 1999 and the first CRV scheduled to be operational in
May 2004. NASA is designing, building, and flight testing the X-38 but plans to select a
contractor to build the CRV. The Project Manager reports to Johnson’s Director of Engineering
for the X-38 segment and to the ISS Program Manager for the CRV segment.

Operational Vehicle Testing Needs to be Assessed

Finding. NASA has not planned or provided for CRV operational testing that may be necessary
to human rate the CRV. Specifically, the X-38/CRV Project Office plans do not include flight
testing of a production vehicle. Also, the Project Office had not assessed the probability of
production vehicle testing, and until May 19, 1999, had not formulated decision dates and criteria
needed if production vehicle testing is performed. Further, the Project Office has not identified
the risk, financial resources, or requirement for one or more Space Shuttle flights if operational
testing is ultimately needed to rate the CRV for human flight. The Project Manager stated that an
operational test had not been planned because there was no baseline requirement for one,
sufficient basis existed that human rating might be achieved by an X-38 space flight test, and
sufficient time remained to address the issue. The CRV must be deployed to permit the full
complement of seven crewmembers on board the ISS and to assure their safe return to Earth,
together, if necessary. CRV operational testing could delay the current schedule for CRV
deployment and, therefore, needs to be thoroughly and promptly assessed.

NASA Requirements

Human-Rating Requirements. Requirements for all future spacecraft, including the CRV, that
are intended to carry humans are contained in policy document Johnson-28354, “Human-Rating
Requirements,” June 1998. A general requirement is that, whenever possible, the flight test
program must include the entire mission profile. Safety and reliability requirement No. 6 states
that the program shall be designed so that cumulative probability of safe crew return over the life
of the program exceeds 99 percent.

Risk Management. NASA Procedures and Guidelines (NPG) 7120.5A, “NASA Program and
Project Management Processes and Requirements,” April 3, 1998, contains criteria for risk
management. Risk management is conducted to identify risks; analyze their impact; prioritize,
develop, and plan for risk mitigation; and track risks. Primary risks, that is, those having both
high probability and high impact or severity, require consequence development, probability




6
 The U.S. Air Force developed the lifting body concept in the 1960’s during its X-24 Program.
                                                        2
estimation, cost impact, schedule impact, and other program management actions. The ISS
Program Office has developed a risk management process through which it implements the
requirements of NPG 7120.5A.7

Human-Rating Plan. The Project Office plan for human rating the CRV requires the Phase 18
contractor to develop a plan for certifying that the CRV meets all specified design and
performance requirements. The Phase 1 contractor must also provide an assessment of the CRV
design using Johnson’s human rating requirements, identify any deficiencies, and recommend
design modifications to resolve the deficiencies. Ground tests and the space flight test of the
X-389 deployed from the Space Shuttle are also expected to be major factors in human rating the
CRV. If NASA cannot human rate the CRV in this manner, then the Agency prefers to make a
decision on CRV production vehicle testing following the X-38 space flight test.

Project Management Explanation and Actions

On May 10, 1999, we met with the Project Manager to discuss the lack of planning for testing the
operational CRV and a milestone date for a decision on whether to conduct the testing. The
Project Manager responded that an operational CRV test was still an option. He had discussed
the issue in a March 1998 Project review, which included CRV operational test considerations
and options. He also emphasized the importance of proceeding with the assessment of the
outcome of the X-38 space flight test and with conducting ground tests. The Project Manager
explained that neither the ISS Program Office nor the X-38/CRV Project Office had planned for
or scheduled operational CRV testing because it was not a baseline requirement, sufficient basis
existed that human rating might be achieved by an X-38 space flight test, and time was still
available to address the issue. The Project Manager also stated that a decision regarding CRV
operational flight-testing would be best made after the X-38 space flight test.

On May 19, 1999, the Project Manager developed a CRV Production Flight Test Design
Milestones package. The package addressed space flight testing, reasons to conduct a test of a
production vehicle, items that can be tested only by space flight, and items that can be completely
tested without space flight. The package also contained a production test decision tree, design
milestones, and design gates10 for a production flight test. The Project Manager submitted the
package to Johnson’s Director of Engineering and planned to include the provisions in the risk
management plan and to put the decision gate milestones in the X-38/CRV project calendar.




7
The risk management process for the ISS Program is discussed in NASA Audit Report IG-99-009, “Space Station
Contingency Planning for International Partners,” March 9, 1999.
8
 Phase 1 includes developing the X-38 design to the capability of satisfying requirements for the operational CRV
and demonstrating the contractor’s ability to produce a CRV in Phase 2.
9
 The space flight test will involve X-38 Vehicle No. 201.
10
 A “gate” is a term the Assessment Office uses to indicate an action that must be completed before proceeding to the
next step (that is, contract award).
                                                            3
In the April 1999 draft of the Phase 211 request for proposal, the Project Office included a
possible requirement for the contractor to develop and execute a plan to flight test an unmanned
CRV that would be docked to the ISS. The test would include deployment, deorbit burn, reentry,
and parafoil flight to a designated landing site. However, the ISS Program has not planned for
the test. An operational CRV flight test from the ISS would require at least one additional Space
Shuttle flight and manifest request. For fiscal year 2002, the marginal cost of an additional Space
Shuttle flight is estimated to be about $84 million.12

Concerns of Independent Review Groups

Three independent groups have reviewed the X-38/CRV Project and have expressed concerns
about human rating the CRV. Further, two of the groups expressed specific concerns about the
lack of a flight test of the CRV.

•     NASA Advisory Council/Cost Assessment and Validation Task Force. The NASA
      Advisory Council developed an independent assessment of the ISS using a Cost Assessment
      and Validation Task Force. In April 1998, the task force reported that lack of a plan for a
      space flight test of a CRV was a major programmatic risk. The report related both to the
      technical risk of not conducting operational CRV testing and the cost impact if such testing
      was conducted.

•     **Deliberative process information omitted.**




•     As of July 1999, the Project Office had not planned for operational flight testing as a result
      of the Assessment Office determination.

•     Aerospace Safety Advisory Panel. The NASA Aerospace Safety Advisory Panel (the
      Advisory Panel)13 reviews NASA safety studies and operations plans. The Advisory Panel’s

11
 Phase 2 involves production of the CRV, specifically, four CRV's, two CRV berthing adapters, and one set of spare
parts, based on the design proposed at the Phase 1 critical design review.
12
    Source: ISS Program Operating Plan, 1998 Recommendation for fiscal year 2002.
13
  The Advisory Panel advises the Administrator on the hazards of facilities and proposed operations with respect to
safety standards.
                                                         4
     1998 Annual Report addressed the X-38/CRV, stating that the current design included at least
     15 unproved technologies and that the entire CRV would have to be thoroughly analyzed and
     tested before the vehicle is fielded as the lifeboat for the ISS. The Advisory Panel also noted
     that the ISS plan to use Soyuz14 as an interim CRV is complicated by the uncertain delivery
     schedule for the Soyuz, its 6-month on-orbit life, and Russian launcher capability. The
     Advisory Panel recommended that NASA not allow limited CRV development time to
     compromise the conduct of a thorough risk assessment and testing program. In July 1999,
     the NASA Administrator concurred with the recommendation and responded that each
     contractor will be required to develop a CRV certification plan.

Contingency Planning Needed Now

The NASA Administrator has stated that safety is the Agency’s highest order and mission.
Safety supersedes cost, schedule, and performance. NASA should take immediate action to plan
for the contingency of CRV operational testing because of the U.S. commitment to provide crew
return capability, the Agency commitment to safety, and the review groups’ concerns about the
safety risks of not conducting operational testing. The action should include a test plan and
schedule, a milestone for a decision on operational testing, and recognition of the testing as a
primary ISS Program risk.

Recommendations, Management’s Response, and Evaluation of Response

1. The Director, Lyndon B. Johnson Space Center should revise the X-38/CRV Project
Plan to provide for the contingency of CRV operational testing including a test plan and
schedule and a milestone date for a decision on the testing.

Management’s Response. Concur. The ISS Program Manager established a set of production
vehicle space test decision milestones with dates for decisions on the testing and directed they be
baselined into the ISS Program. Management also stated that (1) it was yet to be determined
whether X-38 testing and CRV ground testing would provide complete validation of the CRV
design and that (2) the Project Office would explore alternatives to a Space Shuttle-based test of
the CRV, including atmospheric testing of the production CRV. The complete text of
management’s response is in Appendix B.

Evaluation of Management’s Response. Management’s comments are responsive to the
recommendation. Although management did not specifically address a test plan and schedule,
we accept management’s statements regarding the uncertainty of the mode of CRV testing as
justification for not developing a test plan and schedule at this time. However, we expect that
management will develop a test plan and schedule after determining the type of CRV testing to
be performed. The recommendation is resolved but will remain undispositioned and open for
reporting purposes until corrective action is completed.



14
  Soyuz is a manned Russian spacecraft that will be used to support crew rotation and crew rescue missions for the
ISS until the CRV is operational. However, Soyuz can carry only three crew members.
                                                         5
2. The Director, Lyndon B. Johnson Space Center should include CRV operational testing
in the ISS Program risk management system as a primary risk, as defined by
NPG 7120.5A.

Management’s Response. Concur. The ISS Program Manager directed the cognizant program
elements to implement the recommendation. The Project Manager will present the CRV
operational test contingency to be formalized as a program risk at the October 1999 ISS Program
Risk Assessment Board meeting. The complete text of management’s response is in Appendix
B.

Evaluation of Management’s Response. Management’s comments are responsive to the
recommendation. The planned action to formalize the operational test as an ISS risk assures that
the ISS Program will manage the contingency. The recommendation is resolved but will remain
undispositioned and open for reporting purposes until the corrective action is completed.




                                               6
            Appendix A. Objectives, Scope, and Methodology
_________________________________________________________________
Objectives

Our overall objective was to evaluate effectiveness of X-38/CRV project management. For this
report, we assessed project testing and flight testing, including rating the CRV for human flight.

Scope and Methodology

Our audit included visiting the X-38/CRV Project Office at Johnson, attending a Flight
Readiness Review at Johnson, and observing a free-flight15 test at Dryden Flight Research
Center. We examined and tested project records and documentation to evaluate whether project
management plans and actions were reasonable. We did not assess the reliability of computer-
processed data because we did not use computer-processed data to achieve the audit objectives.
Specifically, we:

     •   Reviewed NASA policies and procedures, ISS Program requirements, the Federal
         Acquisition Regulation, and draft requests for proposal.

     •   Interviewed Project Office personnel and review group members.

     •   Examined review group reports on the X-38/CRV Project and the ISS Program.

Management Controls Reviewed

We reviewed management controls related to the X-38/CRV Project. Specifically, we reviewed
the controls established in NPG 7120.5A relative to project approval. Those management
controls were effective.

Audit Field Work

We performed audit field work for this report from October 1998 through July 1999. We
performed the audit work in accordance with generally accepted government auditing standards.




15
  For this test, free-flight means an unpowered glide of an X-38 after being carried and dropped from a B-52 aircraft.
                                                          7
Appendix B. Management’s Response




                8
    Appendix B




9
Appendix B




             10
     Appendix B




11
Appendix B




             12
                   Appendix C. Report Distribution
__________________________________________________________________
_
National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Advisory Officials

Chair, NASA Aerospace Safety Advisory Panel
Chair, NASA Advisory Council
Chair, Advisory Committee on the International Space Station
Chair, Aeronautics and Space Transportation Technology Advisory Committee

NASA Centers

Director, Dryden Flight Research Center
Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
 Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
   Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisitions
   Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                               13
Appendix C
__________________________________________________________________
_

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science and Transportation
Senate Subcommittee on Science, Technology and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science


Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                              14
Major Contributors to this Report

Dennis E. Coldren, Program Director, Human Exploration and Development of Space Audits

Len Diamond, Audit Program Manager

Dennis Clay, Auditor

Kenneth Sidney, Auditor

June C. Glisan, Program Assistant

Nancy C. Cipolla, Report Process Manager
